No. 21

2o-/3

IN THE SUPREME COURT OF THE UNITED STATES

VICTOR MANUEL SOLORZANO
PETITIONER
I

r r\ p n n
■■■

V.

i

V

UNITED STATES OF AMERICA
Respondent

On Petition for Writ of Certiorari

FILED

To the United States Court of Appeals

JAN 1 6 2021
SUPRE^CnimT1^^

For the Fifth Circuit

PETITION FOR WRIT OF CERTIORARI

Victor Manuel Solorzano

#202100152
Johnson County Jail
1800 Ridgemar Dr.
Cleburne, Tx 76031

.2021

RECEIVED
MAR 1 8 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

QUESTIONS PRESENTED

For the first time on appeal, Mr. Solorzano raised a Fourth Amendment
claim objecting to a state order to place a tracking device on his vehicle. He
contended that the search was a constitutional violation and that it failed to
meet the requirements of Fed. R. Crim. P. 41, in that the state order was not
base don probable cause and was installed during the night, although, the
judge did not expressly authorize installation at night. During this
unconstitutional and unreasonable - - night searcg, Solorzano assaulted law
enforcement officers with a firearm - - because he thought they were
common trespassers stealing. Mr. Solorzano sought to have the evidence of
the assault excluded because: (1) the illegal search provoked the violent
confrontation and was a but-for-cause of the Discovery of the evidence; (2)
there was "prejudice" in the sense that the search might not have occurred
or would not have been so abrasive if the Constitution and Rule 41 had been
followed; and (3) there was evidence of intentional and deliberate disregard
for the Constitution and Rule 41. In its analysis, the Fifth Circuit Court of
Appeals apparently accepted arguendo, "that the state order was not a valid
warrant" but denied the claim under the secong prong of the "plain error"
analysis stating, "(Solorzano) cites no case law for the dubious proposition
that a defendant's life-threatening assault on law enforcement officers
should be excluded because they installed a warrantless tracking device. See
United States v. Trejo, 610 F. 3d 308, 319 (5th Cir.2010) (a claim that is
"novel" and "not entirely clear under the existing case authority "is
doom(end)... for plain error"). His claim fails." Notwithstanding, in, United
States v. Young, this Court reaffirmed that reviewing courts are the assess
plain error claims "imaginatively" and to refrain from "exact(ing) from
episodes in isolation abstract questions of evidence and procedure." 470 U.S.
1,16 (1985) (citing Johnson v. United States. 318 U.S. 189, 202 (1943)
(Franfurter, J., concurring). In addition, this Court stated, Fourth Amendment
errors should have been analyzed individually in the context of unreasonable
searches and seizures."
(ii)

County of Los Angeles v. Mendez. 518 U.S.

(2017), raising the
question: whether the Fifth Circuit Court of Appeals, contrary to established
Supreme Court precedent, erred at prong two of its "plain error" analysis in
requiring Solorzano to point to case law regarding the "type" of evidence
sought to be excluded, rather than, case law regarding the obviousness of
whether the search was unreasonable? Specifically, whether misapplying the
"plain error" analysis in this case, violates Mr. Solorzano's contitutional rights
to Due Process and Equal Protection under the Fifth Amendment and fails to
ensure that practices of this nature will be eradicated in the foreseeable
future - -seriously affecting the fairness, integrity and public reputation of
judicial proceedings.

(iii)

TABLE OF CONTENTS

QUESTIONS PRESENTED

ii

PETITION FOR WRIT OF CERTIORARTI

1

OPINIONS BELOW

1

JURISDICTION

1

STATEMENT OF THE CASE

3

STATEMENT OF THE FACTS AND PROCEDURAL HISTORY

4

REASONS FOR GRANTING THE WRIT

8

I.

Certiorari Should Be Granted Because the United
States Court of Appeals for the Fifth Circuit
Imposed and Improper and Unduly Burdensome
"Plain Error" Review Standard that Contravenes
This Court's Precedents, Affects Substantial Rights,
And Seriously Affects the Fairness, Integrity or
Public Reputation of Judical Proceedings.................

8

A. The Empirical Evidence Demonstrates that the
Fifth Circuit's "Plain Error" Review Standard
Contravenes This Court's Precedents, Affects
Substantial Rights, and Seriously Affects the
Fairness, Integrity or Public Reputation of Judicial
Proceedings...............................................................

(iv)

9

TJ

CONCLUSION

APPENDIX A

Opinion of the United States Court
Of the Appeals for the Fifth Circuit
Affirming Conviction But Vacating
Sentence and Remanding for
Further Proceedings, United States

v. Solorzano, No. 17-11342, 2020
(5th Cir.2020)

APPENDIX B

ia

Appelant's Brief Criminal Appeal,
to the United States Court of
Appeals for the Fifth Circuit;
United States v. Solorzano. No. 17-

11342, 2020
132

(5th Cir. 2020)

APPENDIX C

Appellee's Brief Criminal Appeal,
To the United States Court of
Appeals for the Fifth Circuit;
United States v. Solorzano. No. 17-

11342, 2020
(5th Cir. 2020)

522

(v)

APPENDIX D

Appellant's Reply Brief Criminal
Appeal, to the United States Court
of Appeals for the Fifth Circuit;
United States v. Solorzano, No.17-

11342
(5th Cir. 2020)

114-

(vi)

TABLE OF AUTHORITIES
CASES:

PAGE NO.

Abel v. United States. 362 U.S. 217 (1968)......................................

13

Birchfield v. North Dakota. 579 U.S.__, (2016)...............................

10

County of Los Angeles v. Mendez. 581 U.S.___(2017)....................

10

Davis v. United States. No. 19-5421 (S. Ct.) (2020).........................

9

Ergo Science. Inc., v. Martin. 73 F. 3d 595 (5th Cir. 1996)..............

12

Flippo v. West Virginia. 528 U.S. 11 (1999)......................................

11

Johnson v. United States. 318 U.S. 189 (1943)............................... .

10

Rosales-Mireles v. United States. 318 S. Ct. 1897 (2018)...............

9

Simmons v. United States. 390 U.S. 377 (1968)..............................

11

United States v. Burke. 517 F. 2d 377 (2d Cir. 1975)......................

13

United States v. Caceres. 440 U.S. 741 (1979)................................

14

United States v. Chavez-Hernandez. 671 F. 3d 494 ( 5th Ci. 2012)..... 12
United States v. Cotton. 722 F. 3d 271 (5th Cir. 2013).....

13

United States v. Jones. 132 S. Ct. 945 (2012)....................

11

United States v. Jones. 234 F. 3d 234 (5th Cir. 2000).......

13

United States v. Sellers. 483 F. 2d 37 (5th Cir. 1973).......

12,13

United States v. Solorzano. No. 17-11324 (5th Cir. 2020)

1

United States v. Young 470 U.S. 1 (1985)..........................

9, 10

Weeks v. United States. 232 U.S. 383 (1914)...................

13

Wong Sun v. United States. 371 U.S. 471 (1963)..............

11

(vii)

STATUTES:
28 U.S.C. s. 125(1)

1

RULES:
Fed. R. Crim. P. 41

2,12,14

Fed. R. Crim. P. 41(d)....

12

Fed. R. Crim. P. 41(e) (C)

12

Fed. R. Evid. 801 (d)(2)...

12

(viii)

PETITION FOR WRIT OF CERTIORARI

Petitioner Victor Manuel Solorzano respectfully petitions this Court for a writ
of certiorari to review the opinion of the Fifth Circuit Court of Appeals denying
his claim that the district court clearly erred in failing to exclude the
Government's evidence of his assault.

OPINION'S BELOW
The Fifth Circuit's opinion affirming conviction but vacating sentence and
remanding for further proceedings in unpublished, but reported at United
States v. Solorzano, No. 17-11342, 2020
(5th Cir. 2020) (Appendix A).

JURISDICTION

This Court has jurisdiction pursuant to 28 U.S. C. § 1254 (1). This petition is
timely filed. On March 19, 2020, this Court ordered that the deadline to file
any petiton for a writ of certiorari is extended to 150 days from 90 days. This
applies to any petition for certiorari due on or after March 19,2020. The
opinion in this case was issued on October 19, 2020, therefore, the deadline
for filling this petition was extended to and including March 18,2021.

1

RELEVANT PROVISIONS

This case involves a federal criminal defendant's constitutional rights under
the Fourth and Fifth Amendments, and is governed by Fed. R. Crim. P. 41.

The Fourth Amendment to the United States Constitution provides:

The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
warrants shall issue, but upon probable cause,
supported by oath or affirmation, and particularly describing the place to be
searched, and the persons or things to be seized.

The Fifth Amendment to the United States Constitution provides
in the pertinent part:

No person shall be ***deprived of life, liberty, or property,
without due process of law; (nor deprived the equal protection of the laws).

2

STATEMENT OF THE CASE

Petitioner Victor Manuel Solorzano assualted (w/a firearm) Michael Bali and
Joseph Swanson, Joint Task Force Offficers with the Department of Homeland
Security, Homeland Security Investigations(HSI), while they attempted to
conduct a warrantless—night search. (See D. Ct. Doc. 34, at 1-2) (Detailing
Confrontation); D. Ct. Doc. 39, at 4 11 par. 8 (Judicial Notice of Sunrise); D. Ct.
Doc. 125-1, at 1-3 (State Order); Appendix A, at 5 (53) (The Fifth Circuit Court
of Appeals Apparently Accepting "arguendo that the state order was not a
valid warrant")). As a consequence, Mr. Solorzano was sentenced to 567
months imprisonments. (See D. Ct. Doc. 116 (Judgement)).

For the first time on appeal, Mr. Solorzano raised a Fourth amendment claim
seeking to have evidence of his assualt suppressed. (See Appendix A, at 4 (4^),
and Appendix B, at 14-17 (34? - 37§). Because Solorzano did not preserve this
issue, plain error review applied.

•

The object of the search was not "completely accomplished" for this
purpose until the tracking device was removed from Mr. Solorzano's
vehicle on November 19, 2015, at approximated 6:30pm. (See D. Ct.
Doc. 125-1, at 4).

3

The Fifth Circuit Court of Appeals denied this claim at prong two of the
plain error analysis stating, "(Mr. Solorzano) cites no case law for the
dubios proposition that a defendant's life threatening assault on law
enforcement officers should be excluded because they installed a
warrantless tracking device." (See Appendix A, at 5 (5§).
For this reason, the Fifth Circuit Court of Appeals' plain error review
standard, with respect to Fourth Amendment violations, contravenes this
Court's precedents and effectively denies Solorzano due process and
equal protection under the laws. All in violation of the Fourth And Fifth
Amendments to the United States Constitution.

STATEMENT OF THE FACTS AND PROCEDURAL HISTORY

In November 2014, agents with the Department of Homeland Security,
Homeland Security Investigatuions(HSI) were investigating a drug
smuggling operation. The officers directed their attention towards
Solorzano following his encounter with a known suspect. (See PSR par. 9).
In October 2015, officers witnessed Mr. Solorzano meeting with unknown
individuals in a parking lots on two separate occasions, prompting them to
initiate a traffic stop. They detained Solorzano claiming he had an
outstanding warrant—after he provided a valid driver's license. Upon
searching his vehicle, officers discovered mobile devices, a handgun, and
some United Staes currency. This traffic stop was prolonged for a K-9
made a positive hit-however- no narcotics were discovered and Solorzano
was ultimately released. (See PSR par. 9).

4

Following the traffic stop, three HSI task force officers- - Shannon
McFarland, Michael Bali, and Joseph C. Swanson - were assigned to the case
to investigate Mr. Solorzano. Swanson "allegedly" obtained an order form
a Texas Judge to place a tracking device on Solorzano's vehicle base don
reasonable suspicion" of criminal activity. *(See D. Ct. Doc. 125-1, at 1-3).
McFarland then dropped Bali off in front of Mr. Solorzano's residence so
that he could install the device on Mr. Solorzano's vehicle. The attempted
installation of this device was at night. (See D. Ct. Doc. 34, at 1-2 (Detailing
Confrontation); D. Ct. Doc. 39, at par. 8 (Judicial Notice of Sunrise)).

While Bali was under Solorzano's vehicle, Mr. Solorzano appeared, assualt
rifle in hand, along side his cousin, Edgar Solorzano ("Edgar"). After a bried
verbal exchange, Solorzano shot at Bali, wounding him and shattering the
rear window of Swanson's vehicle. Solorzano continued to shoot at the two
officers as they sped away. (See D. Ct. Doc. 34, at 1-2). The tracking device
was removed from Solorzano's vehicle later that day. (See D. Ct. Doc. 1251, at 4).

•

Mr. Solorzano uses the term "allegedly", because the state order cannot

be authenticated. For example: the state order is devoid (1) a criminal
docket number, (2) the date it was filed, and (3) the Texas Judge did not
testify to its authorization.

5

Throughout this encounter, Me Farland, Bali, and Swanson drove unmarked
vehicles, wore plain clothes, and never informed Solorzano that they were
law enforcement. Edgar testified at the trial he and Solorzano did not know
they were firing at lae enforcement officers. Bali himself recognized on
cross-examination that Solorzano had no reason to believe they were
officers. (See Appendix C, at 8-9 (673 -69^)).

On August 4, 2016 Solorzano was arraigned on six charges: possesion with
intent to distribute a controlled substance, aiding and abetting ( Count 1),
possesion of a firearmin furtherance of a drug trafficking crime (Count 2),
assault on a federal officer, aiding and abetting (Count 3), using, carrying,
brandishing, and discharging a firearm during and in relation to a crime of
violence, aiding and abetting (Count 4), assault on a federal officer, aiding
and abetting ( Count 5), and using, carrying, brandishing and discharging a
firearm during and in relation to a crime of violence, aiding and abetting
(Count 6). (See D. Ct. Doc. 3).

Solorzano pleaded not guilty, and trial proceeded before jury April 11,13,
and 14, 2017. The jury found Solorzano guilty on Counts 1, 3, 4, 5, and 6,
and that he brandished and discharged the firearm during the offense for
Count 4 and 6. (See D. Ct. Doc. 85).

On November 2, 2017, the district court sentenced Solorzano to 567
months' imprisonment, followed by three years' supervised released, and
speacial assessment of $500. (See D. Ct. Doc. 116 (Judgement)). Solorzano
timely appealed. (D. Ct. Doc. 119).

6

REASONS FOR GRANTING THE WRIT

I.

Certiorari Should Be Granted Because the
United States Court of Appeals for the Fifth
Circuit Imposed an Improper and Unduly
Burdensome "Plain Error" Review Standard
That Contravened This Court's Precedents,
Affects Substantial Rights, and Seriously
Affects the Fairness, Integrity or Public
Reputation of Judicial Proceedings

Mr. Solorzano's case illustrates a deeply troubling example of the Fifth
Circuit "Plain Error" review process with regards to Fourth Amendment
claims. In this case, the Fifth Circuit Court of Appeals denied Solorzano's
Fourth Amendment claim under the second prong of "plain error" review,
not because he failed to show a Fourth Amendment violation - that was
"plain". But- because he did not show any case law where a court had
applied the exclusionary rule to the specific evidence sought to be
suppressed. The Fifth Circuit Court of Appeals has consistently misapplied
the "plain error" standard and its interpretation of the "plain error"
standard continues to contravene this Court's guidance and forecloses the
possibility that the court will reach a different conclusion if presented with
the "Plain Error" Standard in another case. This Court has previously
corrected misapplications of the plain error standard withtin the Fifth
Circuit on a case-by-case basis to maintain uniformity.

7

See Davis v. United States. No. 19-5421 (S. Ct.) (2020); see also RosalesMireles v. United States. 138 S. Ct. 1897 (2018). This court should grant
certiorari to address this misapplication of the "plain error" review
process.
A. The Empirical Evidence Demonstates that
the Fifth Circuit's "Plain Error" Review Process
Contravenes This Court's Precedents, Affects
Substantial Rights, and Seriously Affects the
Fairness, Integrity or Public Reputation of
Judicial Proceedings.

Mr. Solorzano's case exemplifies the Fidthe Circuit's misapplication
of the "plain error" review standard which contravenes this Court's
precedents, affects substancial rights, and seriously affects the fairness,
integrity or public reputation of judicial proceedings.

1. Plain Error Review Standard Contravenes This Court's Precedents
Because "each case necesaarily turns on its own facts," this Court has
made clear that, on plain error review, revieing courts must consider the
"entire record" when determining whether, on a case by case basis, a
defendant is entitled to relief. United States v. Young. 470 U.S. 1, 16 &
n. 4 (1985). Reviwing courts are to assess plain error claims
"imaginatively" and to refrain from "exact(ing) from episodes in
isolation abstract questions of evidence and procedure." Young, 470
U.S. at 16 (citing Johnson v. United States. 318 U.S. 189, 202 (1943)
(frankfurter, J. concurring)); see also County of Los Angeles v. Mendez.
581 U.S. __ /
,(2017) (Fourth Amendment errors should be analyzed
individually in the context of unreasonable searches and seizures)
8

(quoting Birchfield v. North Dakota, 579 U.S.

(2016) (slip op.,
at 37) ("(R)easonableness is always the touchstone of the Fourth
Amendment analysis.")
In this case, the Fifth Circuit Court of Appeals apparently accepted
"argunendo that the state order was not a valid warrant." (See Appendix
A, at 5 (5§). By doing so, it conceded at prong one of the plain error
analysis, that there was an error. Flowever, the Fifth Circuit Court of
Appeals failed at prong two of the plain error analysis in analyzing the
Fourth Amendment error in the context of whether the search was
reasonable. Instead of asking, whether its obvious that the search was
reasonable. The Fifth Circuit Court of Appeals asked, whether its obvious
"that a defedant's life -threatening assault on law enforcement officers
should be excluded because they installed a warrantless tracking
device". (Appendix A, at 5 (5§). Flere, the Fifth Circuit Court of Appeals
failed to assess the plain error claim imaginatively and exacted from this
episode in isolation an abstract question of evidence and procedure.
Moreover, it did so, without considering the entire receord on a caseby-case basis, contravening this Court's precednts.
2. Error Affects Substantial Rights
Had the Fifth Circuit properly analyzed the Fourth Amendment claim at
prong two- there is a reasonable probability of a different outcome.
The Fourth Amendment protects against "unreasonable searches
and seizures." U.S. CONST. Amend. IV. "(T)he Government's installation
of a GPS device to monitor a vehicle's movements, constitutes a search.
See United States v. Jones. 132 S. Ct. 945, 949 (2012). Under the Fourth
Amendment, "(a) warrantless search by the police in invalid unless it
falls within one of the narrow and well-delineated exceptions to the
warrant requirement." Flippo v. West Virginia. 528 U.S. 11, 13 (1999).
The essence of contitutional

provision prohibiting unreasonable

searches and seizures is not merely that evidence so acquired shall not
be used at all;

9

while facts thus obtained may be proved like any others if knowledge of
them

is gained

form

independent

source

knowledge

gained

by

government's own wrongs cannot be used by it in criminal prosecution.
Wong Sun v. United States, 371 U.S. 471 (1963). In order to effectuate the
Fourth Amendment's guaranty of freedom searches and seizures,
defendant's in federal prosecutions have the right, upon motion and proof,
to have excluded from trial evidence secured by unlawful search and
seizure. Simmons v. United States. 390 U.S. 377 (1968).

In this case, HSI task force members, executed a search -at night—without
a warrant in vialotion of the Fourth Amendment and Fed. R. Crim. P. 41.
Rule 41 was applicable because HSI task force officers obtained and
executed the tracking device order. (See Appendix C, at 3-4 (62§- 63§), and
its requirements were not met.

"Every requirement of Rule 41 is not a sine quanon
to federal court use of the fruits of a search
predicated on the warrant, even though federal
officials participated in its procuration or execution.
The products of a search conducted under the
authority of a validly issued state warrant are
lawfully obtained for federal prosecutorial purposes
if the warrant satisfies constitutional requirements
and does not contravene any Rule-embodied policy
designed to protect the integrity of federal courts to
govern the conduct of federal officers.

10

"The proper test to applied is whether a particular
Rule 41 standard is one designed to assure
reasonableness on the part of federal officers, or
whether the provision merely blueprints the procedure
for issuance of federal warrants."
United Staes v. Sellers. 483 F. 2d 37, 43-44 (5th Cir. 1973).

Rule 41(d) was not complied with in that the court order was not base on
probable cause. Rule 41
•

The government made a judicial admission that HSI task force officers
obtained and executed a court order authorizing officers to place a
tracking device on Solorzano's vehicle. A judicial admission is binding
upon the party making it and may not be controverted at trial or on
appeal. United States v. Chavez-Hernandez, 671 F. 3d 494, 501 (5th Cir.
2012); see Fed. R. Evid. 801(d) (2) (2016). Judicial estoppel prevents a
party from asserting a position in a legal proceeding that is inconsitent
with a position previuosly taken. Ergo Science, Inc., v. Martin. 73 F. 3d
595, 598 (5th Cir. 1996).
(e) (C) was not complied with in that the court order did not designate
the magistrate to whom it must be returned, did not specify the length
of time that the device may be used, not to exceed 45 days from the
date the court order was issued, did not require search within 10 days,
and did not expressly authorize installation of the tracking device at
night. In United States v. Burke, the court held that these provisions
violated were "Rule-embodied policy designed to protect the integrity
of the federal courts or to govern the conduct of federal officers." 517
F. 2d 377, 385 (2d Cir. 1975) (quoting Sellers). What was done here was
an unconstitutional warrantless search.

11

In general terms, the exclusionary rule prohibits the introduction of
evidence at trial that is derivative of an unconstitutional search and
seizure. See United States v. Cotton. 722 F. 3d 271, 278 (5th Cir. 2013);
Weeks v. United States. 232 U.S. 383 (1914). Under the fruit-of-the
poisonous tree doctrine, all evidence derived from the exploitation of
an illegal search or seizure must be suppressed, unless the Goverment
shows that there was a break in the chain of events sufficient to refute
the inference that the evidence was a product of the Fourth
Amendment violation. United States v. Jones. 234 F. 3d 234, 243-44 (5th
Cir. 2000); Abel v. United States. 362 U.S. 217 (1968) (recognizing that
in a federal prosecution for crime, articles obtained by an illegal search
must be suppressed as the fruits of activity in violation of the Fourth
Amendment, whatever the natutre of the seized articles, and however
proper it would have been to seize them during a valid search.
In this case, the Fourth Amendment and Rule 41 violations were a
but-for-cause of the Discovery of the evidence of Solorzano's assault on
law enforcement. In this case, the dericative evidence of assault may not
be sufficiently attenuated from the Fourth Amendment and Rule 41
violations because the Fourth Amendment and Rule 41 were knowingly
and intentionally violated, in that officers acted in reckless disregard or
conscious indifference to whether the Fourth Amendment and Rule 41
applied and were complied with.
Had the Fifth Circuit of Appeals properly applied the plain error
review standard to the facts of this case, there is a reasonable
probability that the outcome would have been different because: (1)
there was "prejudice" in the sense that the search might not have been
so abraisive if the Fourth Amendment and Rule 41 had been followed;
and (2) there is evidence of intentional and deliberate disregard of the
Fourth Amendment and the provisions of Rule 41.

12

3. Error Seriously Affects the Fairness, Integrity or Public
Reputation of Judicial Proceedings
In United States v. Caceres, 440 U.S. 741 (1979), this Court observed
that the exclusionary rule "has primarily rested on the judgment that the
importance of deterring police conduct that may invade the constitutional
rights of individuals throughout the community outweighs the importance of
securing the conviction of the specific defendant at trial. The constitutional
nexus is likewise reflected in the statement in United States v. Janis 428 U.S.
433,448 n. 35 (1976), that "the primary meaning of judicial integrity in the
context of evidentiary rules is that the courts must not commit or encourage
violations of the Constitution."
Failure to ensure that practices of this nature will be eradicted seriusly
affects judicial integrity.

CONCLUSION

Fort he foregoing reasons, Mr. Victor Solorzano prags that this Court
grant a writ of certiorari to the United States Court of Appeals for the Fifth
Circuit.

Dated

fYl ri/ck IS.oV)Q.(

Respectfully submitted,
LS
Victor Manuel Solorzano

#202100152
Johnson County Jail
1800 Ridgemar Dr.
Cleburne, Tx 76031

13

